rT

2311 Douglas Street COC! LE

1 Brief E-Mail Address:
Omaha, Nebraska 68102-1214 be 02 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-520
ALAN PHILIPP,

GERALD STIEBEL, AND JED LEIBER,
Conditional Cross-Petitioners,
v.
FEDERAL REPUBLIC OF GERMANY,
A FOREIGN STATE, AND STIFTUNG
PREUSSISCHER KULTURBESITZ,
AN INSTRUMENTALITY OF A FOREIGN STATE,
Conditional Cross-Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. 1(h), I certify that the REPLY BRIEF IN SUPPORT
OF CONDITIONAL CROSS-PETITION FOR WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

2618 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

General Notary . ‘ tf, ZK 2 b d,
State of Nebraska . ,
My Commission Expires Nov 24, 2020 <

Notary Public Affiant

 

39237
